June 12, 2009

AREA VICE PRESIDENTS

SUBJECT: Management Advisory – Sustainability: Promoting Energy and Recycling
         Compliance (Report Number DA-MA-09-001)

The Vice President Sustainability requested the U.S. Postal Service Office of Inspector
General (OIG) review energy and recycling compliance at the U.S. Postal Service
(Project Number 09YG020DA000). This management advisory summarizes the Postal
Service’s compliance with energy and recycling policies and procedures at 90 field
sites. We utilized a checklist developed with Postal Service facility, energy, and
environmental managers to assess and score compliance at these field sites. See
Appendix A for additional information about this audit.

Opportunity to Improve Energy and Recycling Awareness

Although the Postal Service established guidance for energy conservation,
improvements are needed to increase energy awareness in the field as only two of the
90 sites visited met basic energy standards. Questionnaire responses collected
indicate most of the sites can improve in the areas of basic building maintenance, such
as, setting prescribed temperatures and installing occupancy sensors. Because the
Postal Service could increase energy efficiency through complying with these low cost
or no cost measures, more than $1.6 million could have been avoided for the 2-year
period ending September 30, 2008, and more than $1.9 million can be avoided in the
next 2 years. As such, we will report these amounts, respectively, as questioned costs
and funds put to better use in our Semiannual Report to Congress.

Our site visits also revealed the Postal Service can improve awareness of recycling
policies. Of the 90 sites reviewed, only 22 sites met basic standards. Questionnaire
data collected indicate many field sites place recyclable material in trash dumpsters and
do not have clear separations of recyclable materials. In some cases, facilities were
unaware of recycling policies and opportunities.

In summary, we note that area offices have the opportunity to improve energy and
recycling awareness as their average scores indicate they do not meet basic standards.
This condition can be attributed to implementing respective policies inconsistently
across the Postal Service. See Appendix B for our detailed analysis of this topic.

To increase the level of awareness, we recommend Area Vice Presidents:

1. Reinforce energy and recycling polices with installation managers.

2. Require periodic talks to employees on energy and recycling practices.
Sustainability: Promoting Energy and Recycling Compliance                       DA-MA-09-001



Management’s Comments

Postal Service Area Vice Presidents agreed with the two recommendations and will take
appropriate actions to resolve identified issues by December 30, 2009. Specifically,
Area Vice Presidents agreed to issue memorandums, directives, checklists, or other
written guidance to installation managers to reinforce energy and recycling policies.
They also agreed to provide periodic service talks and briefings to employees on energy
and recycling practices.

While Postal Service Area Vice Presidents agreed with the findings and
recommendations and recognized there are opportunities to improve energy and
recycling awareness, three Area Vice Presidents disagreed with our monetary impact
calculation.

   •   The Great Lakes Area did not agree with unrecoverable questioned costs of
       $2,282,013 calculated using facility costs for fiscal years (FYs) 2007 and 2008.
       They pointed out that facility costs for the Palatine Processing and Distribution
       Center (P&DC) were based on the total costs for the Northern Illinois District
       rather than the individual facility.

   •   The Southeast Area questioned our funds put to better use calculation of $2.67
       million for FYs 2009 and 2010. They suggested using British Thermal Units per
       square foot or kilo-watt hours per square foot to measure energy consumption
       rather than the cost of utilities.

   •   The Eastern Area had concerns with the methodology used to calculate our
       monetary impacts because we did not use temperature variance as a factor in
       determining average utility costs.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. We determined that
the initial finance number used to identify utility costs for the Palatine P&DC in the Great
Lakes Area was in fact for the entire Northern Illinois District. As such, we reduced the
total monetary impact presented to $3.6 million.

While we appreciate the concerns of the Southeast and Eastern Areas, we did not think
it was necessary to make further adjustments to our monetary impact calculation as we
developed the monetary impact methodology with appropriate Postal Service managers
prior to our evaluation. See Appendix E for management’s comments in their entirety.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the


                                                  2
Sustainability: Promoting Energy and Recycling Compliance                    DA-MA-09-001



Postal Service follow-up tracking system until the OIG provides written confirmation that
the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Wayne Sharpe, Acting
Director, Engineering, or me at (703) 248-2100.

    E-Signed by Miguel Castillo
 VERIFY authenticity with ApproveIt




Miguel A. Castillo
Acting Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: William P. Galligan
    Samuel M. Pulcrano
    Deborah M. Giannoni-Jackson
    Tom A. Samra
    Michael J. Fanning
    Robert K. McNiece
    Carolyn C. Cole
    Katherine S. Banks




                                                  3
Sustainability: Promoting Energy and Recycling Compliance                              DA-MA-09-001




                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service utility costs were more than $600 million during FY 2008, a 6-
percent increase over the previous year. In an effort to reduce these costs, the Postal
Service is implementing programs, such as, piloting remote building systems to help
reduce energy consumption and costs. In the meantime, Handbook MS-49, Energy
Conservation and Maintenance Contingency Planning, dated June 1, 1981, provides
energy conservation guidance. This guidance includes turning off lights before leaving
a room, setting thermostats at 68 degrees in the winter and 78 degrees in the summer,
and not using portable fans and heaters to supplement building temperatures. These
are only a few low cost or no cost measures facilities can use to control energy costs.

Likewise, Handbook AS 550a, Paper and Paperboard Recycling Guide, dated
September 1997, documents the Postal Service policy for recyclables. In general, all
recoverable materials should be recycled to foster the sustainable use of natural
resources. Also, the Postal Service believes recycling is a sound business practice that
can produce revenue for the Postal Service. In FY 2008, the Postal Service generated
$12.4 million in revenue for their recycling efforts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to summarize the Postal Service’s compliance with energy and
recycling policies and procedures. To perform this audit, the OIG and representatives
from Postal Service Facility, Energy, and Environmental Policy and Programs groups
worked together to develop a survey questionnaire (http://survey.uspsoig.gov/cgi-
bin/qwebcorporate.dll?idx=8X6AAS) to assess the level of energy and recycling
compliance at field sites. Based on survey responses and assigned point values
presented in Table 1, the OIG evaluated the extent of site compliance.

Table 1 – Scoring Criteria

                      Energy                                           Recycling 
 90-100 Points = Basic standards met                   70-100 Points = Basic Standards met
 75-90 Points = Needs Improvement                      50 to 69 Points = Needs Improvement
 Below 75 Points = Program review needed               Under 50 Points = Program Review needed


We conducted this review from October 2008 through June 2009 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
These standards require that we plan and perform the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for conclusions based on our
objective. We discussed our observations and conclusions with management officials
on April 24, 2009, and included their comments where appropriate.



                                                  4
Sustainability: Promoting Energy and Recycling Compliance                                     DA-MA-09-001




PRIOR AUDIT COVERAGE

     Report          Report          Final Report           Monetary
      Title          Number              Date                Impact               Report Results
  Northern         DA-AR-08-003      October 10,            $2 million for   The district had low or no cost
  Virginia                           2007                   calendar         opportunities to reduce energy
  District                                                  year 2007        consumption and energy
  Energy                                                                     costs. We recommended and
  Management                                                                 district management agreed to
  Opportunities                                                              pursue low or no cost energy
                                                                             conservation activities such as
                                                                             adjusting temperature settings
                                                                             and using occupancy sensors.
                                                                             Management completed all
                                                                             actions in December 2008.
  U.S. Postal      DA-AR-09-005      March 31, 2009         None             The Pacific Area has a
  Service                                                                    profitable recycling program.
  Recycling                                                                  However, there are
  Opportunities                                                              opportunities to expand
  in the Pacific                                                             recycling programs. We
  Area                                                                       recommended and
                                                                             management agreed to
                                                                             provide additional recycling
                                                                             training and to expand
                                                                             recycling programs throughout
                                                                             the area. In addition,
                                                                             management agreed that site
                                                                             personnel should certify the
                                                                             tonnage of recyclable material
                                                                             and trash collected by
                                                                             contractors.




                                                   5
Sustainability: Promoting Energy and Recycling Compliance                         DA-MA-09-001




                                    APPENDIX B: DETAILED ANALYSIS

Opportunity to Improve Energy Awareness

The Postal Service has an opportunity to improve energy awareness. We believe this
opportunity exists as the data collected suggests energy policies are implemented
inconsistently across the Postal Service. Specifically, only two of the 90 facilities visited
were evaluated as meeting basic standards as defined by the scoring methodology.
Facilities meeting basic standards are engaged in reducing energy consumption
through the use of low or no cost energy savings practices. For example, setting facility
temperature at prescribed levels and turning off lights in unoccupied areas reduces
energy consumption and cost with little or no investment. Overall, sites reviewed
showed greater attention to the following areas of energy awareness, ensuring:1

       •   Exterior lights are controlled by timer or photocell switches.
       •   Facility doors are kept closed.
       •   Doors and windows are properly weather stripped.
       •   Lights are cleaned and changed when needed.
       •   Lavatory facilities do not have water leaks.

Areas of energy awareness, where most of the sites have an opportunity to improve
include:2

       • Turning off interior lights in unoccupied areas.
       • Installing interior lighting controls and occupancy sensors.
       • Limiting the use of portable heaters.
       • Correcting the time on programmable thermostats and changing backup
          batteries.
       • Adjusting temperature set points to meet specifications.
       • Taking measures to reduce domestic water use.

The Postal Service estimates as much as 10 percent of utility costs can be saved
through the use of low or no cost improvements. When applied to the facilities in our
review, we estimate that $1,672,217 could have been avoided for the 2-year period
ending September 30, 2008, and $1,946,954 can be avoided in the next 2 years. (See
Appendix C for our detailed analysis monetary impacts.) We note opportunities
identified in this report are similar to our energy audit of the Northern Virginia District. In
that audit, we highlighted that energy awareness programs teach energy users to
eliminate waste without diminishing their quality of life using many of the techniques
described above.



1
    These attributes were found in at least 75 of the 90 sites visited.
2
    These attributes were found in 65 sites or less.




                                                               6
Sustainability: Promoting Energy and Recycling Compliance                                           DA-MA-09-001



Opportunity to Improve Recycling Awareness

The Postal Service also has the opportunity to improve recycling awareness. The focus
of the recycling evaluation centered on recycling efforts at the local level. Of the 90
sites reviewed, 22 sites met basic standards. Facilities that met basic standards
demonstrated higher levels of recycling efforts, such as:3

    •   Adopting an environmental policy that encourages recycling.
    •   Recycling mixed office and white office paper.
    •   Recycling toner cartridges.
    •   Recycling cardboard.

Areas where many sites have an overall opportunity to improve include, ensuring:4

    •   Facility managers have the applicable Environmental Compliance Guidebook.
    •   Recyclable material is not placed in trash dumpsters.
    •   Facilities increase recycling of discarded lobby mail.
    •   Account Identification Codes (AIC) 149 and 1565 are used to report recycling
        revenues.

We believe these recycling opportunities exist primarily because the implementation of
recycling policies was also inconsistent across the Postal Service. For example, we
found many field sites place recyclable material in trash dumpsters and do not have
clear separations of recyclable materials. In other cases, facilities were unaware of
recycling policies and opportunities. We also attribute these opportunities to effective
communications as only 40 of the 90 sites responded that employees had been given
environmental service talks. Through greater awareness, the Postal Service could
increase revenues and meet their goal to recycle all recoverable materials to sustain the
use of natural resources.

We note the recycling opportunity relating to reporting revenues is similar to the
opportunity discussed in our recycling audit of the Pacific Area. As it relates to
increasing awareness, Pacific Area management proactively took actions to provide
additional training and notably initiated monthly “trash talk” net meetings.




3
  These attributes were found in at least 50 of the 90 sites reviewed.
4
  These attributes were found in 40 sites or less.
5
  AIC 149 tracks revenues generated from the sale of paper, plastic, and other recyclables. AIC 156 tracks revenues
generated from the sale of miscellaneous items and non-capital equipment, including scrap metals and unserviceable
postal and building supplies.




                                                         7
Sustainability: Promoting Energy and Recycling Compliance                             DA-MA-09-001



Area Office Summary

We summarized site results by Postal Service area office and present them in Table 2.
This view highlights all area offices have room for improving energy and recycling
compliance as their average scores were below meeting basic standards using the
methodology we developed with the Postal Service. See Appendix D for our detailed
analysis of area office results.


    Table 2- Area Office Average Scores
 
                                                          Average            Average  
          Area Office          No. Sites Visited        Energy Score      Recycling Score 
     Capital Metro                     6                     73                 41
     Eastern                           19                    70                 35
     Great Lakes                       9                     64                 54
     New York                          5                     59                 68
     Northeast                         10                    75                 67
     Pacific                           12                    72                 56
     Southeast                         10                    67                 37
     Southwest                         6                     65                 42
     Western                           13                    59                 35




                                                    8
Sustainability: Promoting Energy and Recycling Compliance                      DA-MA-09-001




         APPENDIX C: CALCULATION OF UNRECOVERABLE QUESTIONED
                   COSTS AND FUNDS PUT TO BETTER USE


                    Table 3 - Total Monetary Impact

                                 Description                 Amount
                      FYs 2007 and 2008 Unrecoverable       $1,672,217
                      Costs
                      FYs 2009 and 2010 Funds Put To        $1,946,954
                      Better Use
                      Total                                 $3,619,171


Monetary Methodology

Monetary was calculated based on individual facilities utility costs for FYs 2007 and
2008. The evaluated score from the checklist results was then used to determine the
percentage of monetary impact as determined by Postal Service managers. (See
Table 4)



             Table 4 – Percentage of Monetary Impact


                                     Energy                   Percentage
                                                              of Related
                                                               Monetary
                                                                Impact
                                                                    2
               90-100 Points = Basic standards met
               75-90 Points = Needs Improvement                     5
               Below 75 Points = Program review needed              10


Unrecoverable costs were calculated using individual facility costs for FYs 2007 and
2008, and multiplying by the percentage of related monetary impact based on the
evaluated score. For example if a facility had a score in energy above 90 points,
monetary would be calculated: fiscal year site utility costs x 2 percent = site monetary
impact.
 




                                                  9
Sustainability: Promoting Energy and Recycling Compliance                      DA-MA-09-001



                                  APPENDIX C: CONTINUED

Funds put to better use were calculated using FY 2008 facility costs, as calculated in
unrecoverable cost, and multiplied by an energy escalation rate of 2.6 percent for both
FYs 2009 and 2010. For example: (FY 2008 calculated utility costs x 2.6 percent) +
FY 2008 calculated utility costs = FY 2009 funds put to better use.

Assumptions

Monetary impacts for FYs 2009 and 2010 were calculated using an escalation factor of
2.6 percent annually.

Table 5 – Monetary Impact by Area

        Area             Monetary Impact Percentage         Total Sites   Monetary Impact
                             and Site Allocation                             by Area
                          2%    5%          10%
Capital Metro              1     1            4                      6         $   175,269
Eastern                          7           12                     19             664,072
Great Lakes                      2            7                      9             509,601
New York                         1            4                      5             319,875
Northeast                        5            5                     10             149,532
Pacific                    1     5            6                     12             535,811
Southeast                        4            6                     10             502,220
Southwest                        1            5                      6              89,781
Western                          2           11                     13             673,010
Totals                     2    28           60                     90         $ 3,619,172




                                                  10
 Sustainability: Promoting Energy and Recycling Compliance                            DA-MA-09-001



                                           APPENDIX D: RESULTS SITE EVALUATIONS

                                                                                                     Energy   Recycling
       Area                            District                        Facility Name                 Score     Score
Capital Metro          Greater South Carolina                Charleston P&DC/ Business Mail            85        73
                                                             Entry Unit (BMEU)
Capital Metro          Greater South Carolina                Conway BMEU                               71        16
Capital Metro          Greater South Carolina                Moncks Corner BMEU                        65        60
Capital Metro          Greensboro                            Durham Post Office                        63        15
Capital Metro          Northern Virginia                     Manassas Post Office                      91        59
Capital Metro          Greensboro                            Winston Salem Post Office                 64        22
Eastern                Appalachian                           Alderson Post Office                      60        11
Eastern                Appalachian                           Forest Post Office                        67        38
Eastern                Appalachian                           Ravenswood Post Office                    48        4
Eastern                Central Pennsylvania                  Lehigh Valley P&DC                        66        87
Eastern                Central Pennsylvania                  Womelsdorf Post Office                    61        33
Eastern                Cincinnati                            Cincinnati BMEU                           67        57
Eastern                Columbus                              Newark BMEU                               75        65
Eastern                Pittsburgh                            Cameron Post Office                       74        22
Eastern                Erie                                  New Wilmington Post Office                66        12
Eastern                Kentuckiana                           New Haven BMEU                            72        2
Eastern                Kentuckiana                           Versailles Post Office                    75        29
Eastern                Northern Ohio                         Akron-Copley Branch                       74        49
Eastern                Philadelphia                          Downingtown Post Office                   80        17
Eastern                Philadelphia Metro                    Glen Mills BMEU                           80        21
Eastern                Pittsburgh                            Dunlevy Post Office                       60        5
Eastern                Pittsburgh                            Latrobe BMEU                              86        58

                                                               11
 Sustainability: Promoting Energy and Recycling Compliance                          DA-MA-09-001



                                                                                                   Energy   Recycling
       Area                               District                     Facility Name               Score     Score
Eastern                South Jersey                          Cape May Post Office                    79        56
Eastern                South Jersey                          Jersey Shore Delivery Distribution      64        80
                                                             Center
Eastern                South Jersey                          Sicklerville Post Office                76        18
Great Lakes            Central Illinois District             Champaign Post Office                   80        68
Great Lakes            Gateway                               Alton BMEU                              79        77
Great Lakes            Gateway                               St. Peters BMEU                         69        37
Great Lakes            Greater Indiana                       Bremen Post Office                      51        64
Great Lakes            Lakeland                              Stockbridge Post Office                 48        60
Great Lakes            Northern Illinois                     Palatine P&DC                           71        89
Great Lakes            Central Illinois                      LaSalle BMEU                            70        49
Great Lakes            Lakeland District                     Waterstreet Post Office                 57        29
Great Lakes            Northern Illinois                     Mount Morris Post Office                55        11
New York Metro         Westchester                           Poughkeepsie Post Office                69        31
New York Metro         Central New Jersey                    Trenton Post Office                     73        93
New York Metro         Central New Jersey                    Red Bank Post Office, NJ BMEU &         48        80
                                                             Monmouth P&DC
New York Metro         New York                              James A. Farley Post Office             24        66
New York Metro         Central New Jersey                    Asbury Park BMEU                        80        72
Northeast              Albany                                Champlain BMEU                          72        82
Northeast              Connecticut                           Bridgeport Post Office                  83        88
Northeast              Connecticut                           Middletown Post Office                  81        88
Northeast              Massachusetts                         Newburyport BMEU                        72        67
Northeast              Massachusetts                         Peabody BMEU                            88        59
Northeast              New Hampshire/Vermont                 Colchester Post Office                  58        65



                                                               12
 Sustainability: Promoting Energy and Recycling Compliance                            DA-MA-09-001



                                                                                                     Energy   Recycling
          Area                          District                       Facility Name                 Score     Score
Northeast              New Hampshire/Vermont                 Salisbury Post Office                     71        55
Northeast              Southeast New England                 Bellingham Post Office                    85        65
Northeast              Southeast New England                 North Dartmouth Branch                    83        51
Northeast              Western New York                      Buffalo BMEU                              60        53
Pacific                Bay Valley                            Saratoga Post Office                      57        7
Pacific                Los Angeles                           LAX Airport Station                       80        33
Pacific                Sacramento                            Marysville Post Office/BMEU               78        91
Pacific                Sacramento                            Perkins Station                           92        71
Pacific                Sacramento                            San Andreas Post Office                   57        15
Pacific                San Diego                             San Bernardino General Mail               69        85
                                                             Facility (GMF)
Pacific                San Diego                             San Luis Rey Station                      60        54
Pacific                Santa Ana                             Bryant Station                            62        25
Pacific                Santa Ana                             El Monte Post Office                      81        79
Pacific                Santa Ana                             Industry BMEU                             85        89
Pacific                Santa Ana                             Ontario Post Office                       65        59
Pacific                Sierra Coastal                        Van Nuys Post Office                      82        68
Southeast              Mississippi                           Olive Branch BMEU                         77        22
Southeast              Alabama                               Athens Post Office                        71        62
Southeast              Northern Florida                      Tallahassee P&DC                          54        63
Southeast              Northern Florida                      Arlington Station Post Office             85        35
Southeast              South Florida                         South Florida Post Office                 62        69
Southeast              South Georgia                         Hinesville Post Office                    75        14
Southeast              South Georgia                         Waynesboro BMEU                           81        17




                                                               13
 Sustainability: Promoting Energy and Recycling Compliance                           DA-MA-09-001



                                                                                                    Energy   Recycling
       Area                              District                      Facility Name                Score     Score
Southeast              Sun Coast                             St. Petersburg Post Office               17        3
Southeast              Tennessee                             LaFayette Post Office                    70        54
Southeast              Tennessee                             Powell BMEU                              74        28
Southwest              Arkansas                              Arkadelphia Post Office                  75        45
Southwest              Fort Worth                            Decatur BMEU                             70        45
Southwest              Houston                               Anson Jones Station                      37        25
Southwest              Oklahoma                              Norman Post Office                       66        61
Southwest              Rio Grande                            Boerne Post Office/BMEU                  69        7
Soutwest               Dallas District                       Grand Prairie Post Office                71        66
Western                Arizona                               Lukeville Post Office                    31        11
Western                Arizona                               Tempe Post Office                        81        80
Western                Big Sky                               Helena BMEU                              69        30
Western                Central Plains                        Sterling Post Office                     46        16
Western                Colorado/Wyoming                      Denver GMF/Finance Unit/P&DC             49        62
Western                Colorado/Wyoming                      Rock Springs Post Office/BMEU            59        34
Western                Colorado/Wyoming                      Rollinsville Post Office                 70        8
Western                Hawkeye                               Maquoketa BMEU                           76        75
Western                Mid-America                           Princeton Post Office                    37        11
Western                Mid-America                           Shawnee Mission BMEU                     57        21
Western                Portland                              Eugene P&DC                              67        79
Western                Salt Lake City                        Ferron Post Office                       67        16
Western                Spokane                               Boise Post Office/P&DC                   54        7




                                                               14
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001



                       APPENDIX E: MANAGEMENT’S COMMENTS




                                                  15
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  16
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  17
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  18
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  19
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  20
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  21
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  22
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  23
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  24
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  25
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  26
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  27
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  28
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  29
Sustainability: Promoting Energy and Recycling Compliance   DA-MA-09-001




                                                  30
